           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    ON-SITE SECURITY CONTROL
        AND AUDIT REVIEW
       AT HEARING OFFICES


   September 2007   A-12-07-17080




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      September 28, 2007                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   On-site Security Control and Audit Review at Hearing Offices (A-12-07-17080)


           OBJECTIVE
           Our objectives were to assess (1) the Social Security Administration’s (SSA)
           procedures for selecting hearing offices for On-site Security Control and Audit Reviews
           (OSCAR), (2) SSA’s system for ensuring appropriate correction of deficiencies
           identified through OSCARs, and (3) additional steps SSA can take to enhance the
           OSCAR Guide.

           BACKGROUND

           SSA must comply with the Federal requirements associated with management controls
           and provide assurances that its financial, programmatic and administrative processes
           are functioning as intended. These requirements include the Federal Managers'
           Financial Integrity Act (FMFIA). 1 SSA designed the OSCAR program to satisfy the
           Federal requirements stated in the FMFIA.

           The Office of Disability Adjudication and Review (ODAR) administers 140 hearing
           offices located in 10 regions throughout the United States. 2 ODAR’s Headquarters
           (HQ) is responsible for conducting OSCARs at these hearing offices. 3 In addition to
           using its own staff, HQ has hired contractors in the past to perform these reviews.
           These reviews cover a number of programmatic and administrative functions, including:
           (1) third party draft accounts; (2) acquisitions; (3) time and attendance; (4) security of
           automated systems; and (5) physical and protective security.



           1
               Public Law 97-255.
           2
            On April 3, 2006 the Commissioner of Social Security established the Office of Disability Adjudication
           and Review, which replaced the Office of Hearings and Appeals.
           3
            Throughout the report we will use HQ in sections to denote the involvement of HQ management.
           ODAR management has stated that during our 5-year review period the organization had various
           management structures.
Page 2 - The Commissioner


Under current OSCAR procedures, ODAR is required to review 10 to 20 percent of
hearing offices annually and complete its review of all offices within 5 years, 4 with the
understanding that accomplishment of this requirement is contingent on funding. In
general, an OSCAR is supposed to be completed in 1 visit and, within 30 calendar
days, the data and findings are supposed to be analyzed and a written report issued,
including corrective actions. Once the final report is provided to the audited
component, the hearing office manager has 30 days to respond (either directly or
through its regional office (RO)) with a report of the corrective actions planned and/or
taken. Also, the office/component should forward to HQ, within 90 days of issuing the
corrective action report, a validation report stating that corrective actions have been
implemented.

In addition to OSCARs, there are other reviews performed on hearing offices which
serve as compensating controls. ROs perform administrative reviews on their hearing
offices once every 3 years. An administrative review covers the same scope as an HQ
OSCAR plus other areas such as a workload assessment. Also, each Hearing Office
Director (HOD) conducts an annual self-OSCAR of the hearing office, except during the
year a HQ OSCAR is performed.

RESULTS OF REVIEW

During Fiscal Years (FY) 2002 through 2006, ODAR did not meet the 10 percent
national review threshold in 4 out of 5 years. In addition, ODAR was able to perform
OSCARs at only 70 of the 140 (50 percent) hearing offices during the 5-year period.
This occurred because ODAR was in the process of establishing a formal OSCAR
program and other reviews limited their OSCAR coverage during this period. During
FY 2007, ODAR plans to perform OSCARs on 20 percent of the hearing offices. We
also found that during our review period ROs’ administrative reviews were not
documented in writing and self-OSCARs did not fully identify deficiencies, minimizing
the usefulness of these compensating controls. In addition, we found that OSCAR
reports were not prepared timely for hearing office action. Some recommendations had
not been implemented 18 months after the report was provided to the hearing office,
and ODAR was not regularly collecting and reviewing validation reports, which may
have contributed to the lack of follow-through at the hearing offices. Finally, the
OSCAR guidance could be more comprehensive, covering additional topics, such as
physical security at permanent remote sites and protection of sensitive data.




4
  “Annually, [ODAR] will review 20 percent of the ODAR field and headquarter offices/components under
their jurisdiction or use the 10 percent of the targeted review process each year and complete all
offices/components within 5 years. Accomplishment of the reviews is contingent on funding.” See ODAR
OSCAR Guide, Review Requirements, April 2006, p. 3.
Page 3 - The Commissioner


OSCAR REVIEW COVERAGE

ODAR did not perform the required number of OSCAR reviews at hearing offices during
our 5-year review period primarily because HQ was in the process of establishing the
OSCAR program and other reviews of the hearing offices were being performed. We
also found that other compensating reviews were not an adequate control in the
absence of a full HQ OSCAR.

Required Coverage

The current OSCAR guide requires that ODAR review 10 to 20 percent of all hearing
offices annually and complete the review of all within 5 years. However, as shown in
Table 1, ODAR reviewed less than 10 percent of hearing offices in 4 out of 5 of the
FYs. Moreover, ODAR reviewed only 70 of its 140 hearing offices, or 50 percent,
during the 5-year period.

            Table 1: Headquarters OSCARs During FYs 2002 through 2007
                                   (Related to 140 Hearing Offices)
                                        Number of Hearing
                                        Offices Covered by     Percentage of OSCARs Performed
            Fiscal Year                      OSCARS                 of Total Hearing Offices
             2002                                 4                             3%
             2003                                 3                             2%
             2004                                 3                             2%
             2005                                48                            34%
                                                    1                             1
             2006                               14                             9%
Total Hearing Offices                            72                            50%1
             2007                             28 (est.)                      20% (est.)

Note 1: While 14 OSCARs were performed in FY 2006, 2 were follow-up OSCARs during the 5-FY
period. OSCARs were conducted on the Pasadena hearing office in FYs 2004 and 2006 because it
relocated; and on the Denver hearing office in FYs 2005 and 2006 because the initial OSCAR identified
problems that necessitated further review.

Our review of specific regional coverage found ODAR conducted OSCARs at
80 percent or more of the hearing offices in 3 regions during the 5-year period (see
Table 2). However, 4 regions were below 50 percent coverage for the period.
Page 4 - The Commissioner



                          Table 2: OSCAR Coverage Per ODAR Region
                                 During FYs 2002 through 2006
                                                    Number of Hearing
                         Number of Hearing             Offices with
              Region         Offices               Headquarters OSCAR      Percentage
                 I                 7                          6               86%
                 II               14                          7               50%
                III               17                          6               35%
                IV                31                         14               45%
                 V                19                          8               42%
                VI                16                          7               44%
                VII                7                          4               57%
                VIII               5                          4               80%
                IX                20                         10               50%
                 X                 4                          4              100%
               Total             140                         70               50%

Resources and OSCAR Selection

During FYs 2002 through 2004 ODAR did not perform all the OSCARs needed to meet
the 10 to 20 percent requirement. When we discussed this with ODAR management
we were told that the organization was in the process of establishing the OSCAR
program during this period. Moreover, ODAR management noted that from FY 2004
through April 2006 ODAR was conducting Hearing Office Management Process
Reviews, which took resources away from the HQ OSCAR process.

During FY 2005, additional resources allowed ODAR to perform HQ OSCARs at
48 hearing offices. 5 Accordingly, during that year ODAR exceeded the 10 to 20 percent
requirement. However, our calculations show ODAR fell below the 10 percent
requirement again in FY 2006 because 2 of the 14 OSCARs it performed were follow-
up OSCARs on hearing offices that had already undergone an OSCAR during this
same 5-year period.

ODAR management stated that the FY 2005 rate of HQ OSCARs was not sustained
because during FY 2006 ODAR conducted OSCARs at the 10 ROs, which did not count
toward the 140 hearing offices 5-year goal. ODAR wanted to ensure that ROs’
operations complied with the OSCAR guide and the ROs were familiar with the OSCAR
process and requirements. It is probable that ODAR would have met or exceeded the
10 percent annual requirement if it had not been for the RO OSCARs. As of
June 2007, ODAR stated it expected to issue 28 OSCAR reports in FY 2007, which
would put ODAR at 20 percent coverage for the FY.


5
    A contractor was also brought in to assist with this OSCAR workload.
Page 5 - The Commissioner


In deciding which hearing offices to review, HQ relies on recommendations from each
RO. HQ annually requests that each of ODAR’s 10 ROs recommend hearing offices
within their regions for an OSCAR. Depending on the level of funding for OSCARs, as
well as the number of recommendations from the ROs, HQ decides on the number and
the location of the hearing offices to be reviewed during a particular FY. When we
discussed this process with RO managers, we were told that they recommended
hearing offices for OSCARs during the years when such offices were not scheduled for
administrative RO reviews and/or in cases where the RO had concerns about a
particular office.

Other Hearing Office Reviews

ROs perform administrative reviews on their hearing offices once every 3 years. These
Regional Office Management Reviews cover the same scope as a HQ OSCAR plus
other areas, such as a workload assessment. After completing the review, the review
team orally briefs the hearing office management of its findings and recommendations.
These findings and recommendations were not documented. Although ODAR
management stated that the results of these reviews were not documented because
they contained sensitive information, 6 the failure to document the findings could result
in management’s inability to determine whether documented deficiencies were
corrected. Also, an audit trail would serve to guide future reviews to ensure deficiencies
do not continue.

Each HOD also conducts an annual self-OSCAR of the hearing office except during the
year a HQ OSCAR is performed. These self-OSCARs are documented in writing. Our
review included six self-OSCARs from six hearing offices in five different regions. Of
these six reviews, we identified three self-OSCARs performed within 9 months of the
subsequent HQ OSCARs. We compared the findings resulting from a HQ OSCAR to
the findings in the self-OSCAR performed immediately prior in each of the three hearing
offices.

In our review, we found that the HQ OSCARs were identifying issues not detected in
the self-OSCARs (see Table 3). For example, in January 2005 a self-OSCAR review
was conducted at the Colorado Springs Hearing Office, which identified only one
finding. The review found that the receptionist’s workstation lacked a panic alarm, a
requirement in the Physical and Protective Security section in the OSCAR guide. In
September 2005, HQ staff performed an OSCAR review and documented a total of
37 findings, including:




6
 According to ODAR management, these reviews were not documented due to Freedom of Information
Act and labor-management concerns.
Page 6 - The Commissioner


•      4 related to third party drafts,
•      3 related to acquisitions,
•      7 related to time and attendance,
•      2 related to security of automated systems, and
•      21 related to physical and protective security. The self-OSCAR finding concerning
       the lack of a panic alarm at the receptionist’s workstation was included among
       these findings since it had not been corrected after the self-OSCAR.

The purpose of the self-OSCAR is to ensure hearing offices are aware of existing
policies and procedures, as well as taking steps to correct identified deficiencies.
However, the disparity in findings noted above indicates the self-OSCAR review
process is not always identifying such deficiencies.

                Table 3: Headquarters OSCAR Versus Self-OSCAR Findings
                                                         Total HQ                 Total Self-
                                    HQ OSCAR             OSCAR      Self-OSCAR     OSCAR
          Hearing Offices           Report Date          Findings   Report Date    Findings
    Albuquerque, New Mexico           4/7/2005              34       1/29/2005        20
    Colorado Springs, Colorado       9/30/2005              37       1/28/2005         1
    Fort Worth, Texas                 9/30/2005            38        1/6/2005          5
    Total                                                  109                        26

Successful self-OSCARs are an important part of hearing office integrity since HQ
OSCARs and RO administrative reviews cannot be performed at each location every
year. In FY 2005, the SSA Office of the Inspector General (OIG) performed audits
related to physical security at hearing offices in all 10 ODAR regions. In those audits,
we identified physical security weaknesses in eight hearing offices 7 that did not undergo
HQ OSCARs during the 5-year period covering FYs 2002 through 2006. These
weaknesses included (1) lack of semiannual testing of intrusion detection systems and
duress alarm systems, (2) poor key security, and (3) missing peepholes in hearing
office doors. It is likely that most, if not all, of these deficiencies could have been
detected and corrected as part of a more robust self-OSCAR process.

TIMELINESS OF ISSUING OSCAR REPORTS

The majority of the HQ OSCARs exceeded the established 30-day timeframes for
preparing OSCAR reports. In addition, the contractor hired to perform some of these
OSCARs failed to issue a single audit within the established timeframes.

We examined the timeliness of issuing HQ OSCAR reports during a 12-month audit
period (April 1, 2005 through March 31, 2006). The OSCAR guide requires the
issuance of an OSCAR report within 30 calendar days from the completion of the
OSCAR. Untimely issuance of HQ OSCAR reports could result in delaying
7
    These eight offices were located in seven regions.
Page 7 - The Commissioner


implementation of OSCAR recommendations. During the audit period, 33 HQ OSCAR
reports were issued; HQ performed 21, while the contractor performed 12. As shown in
Figure 1, of the 21 HQ OSCAR reports, only 1 was issued within 30 days of the review
completion date. It took 35 to 237 days to issue the remaining 20 reports, or an
                     8
average of 127 days for all 21 reports. Also, of the 12 OSCAR reports issued by the
contractor, none met the 30-day requirement. However, it took less time to issue these
reports than those HQ issued. The contractor’s reports were issued within 43 to
60 days of review completion date, or an average of 50 days. 9 Additional review data is
provided in Appendix D.

                             Figure 1: Number of Days to Issue Headquarters OSCAR
                                   Reports Versus Contractor OSCAR Reports
                                       (April 1, 2005 through March 31, 2006)
                             270
                             240
                             210
            Number of Days




                             180
                             150
                                                                                    Headquarters
                             120
                                                                                    Contractor
                              90
                              60
                              30
                               0

                                              OSCAR Reports Issued


THE FOLLOW-UP PROCESS

We found that HQ OSCAR report recommendations were not being implemented timely
at half of the hearing offices we visited. In addition, HQ was not collecting validation
reports on a timely basis, which may have contributed to the lack of follow-through at
the hearing offices.




8
    This represents a median of 129 days.
9
    This represents a median of 51 days.
Page 8 - The Commissioner


Hearing Office Actions

Some of the hearing offices were not timely implementing the HQ OSCAR
recommendations. We reviewed a sample of 6 OSCAR reports during April and
May 2007 and found that more than 18 months after issuing these HQ OSCAR reports
3 hearing offices had not implemented 15 to 32 percent of their recommendations (see
Table 4). Unimplemented recommendations related to deficiencies in a number of
areas, such as (1) semiannual testing of intrusion detection systems and panic alarm
systems; (2) availability of fire extinguishers; and (3) properly completing, processing
and certifying leave requests.

               Table 4: OSCAR Recommendations Not Implemented
                                       OIG                 Recommendations
                       HQ OSCAR       Review      Total         Not       Percent Not
    Hearing Office     Report Date     Date      Number     Implemented  Implemented
Albuquerque, New
                         4/7/2005    4/18/2007      34            5            15%
Mexico
Colorado Springs,
                         9/30/2005   4/17/2007      37           12            32%
Colorado
Downey, California        6/3/2005   4/19/2007      17            0             0%
Fort Worth, Texas        9/30/2005   5/30/2007      38            0             0%
Manchester, New           6/3/2005   5/31/2007      30            0             0%
Hampshire
Voorhees, New Jersey     5/5/2005    6/5/2007       25            7            28%
Total                                              181           24

In Table 5, we divided these OSCAR reports’ recommendations into those requiring
funding and those not requiring funding to implement. We did the same with the
recommendations that were not implemented. As indicated in Table 5, all three offices
with unimplemented recommendations had recommendations that did not require
funding. These hearing offices, at a minimum, should have implemented all the
recommendations not requiring funding.
Page 9 - The Commissioner


      Table 5: Recommendations Requiring Funding/Not Requiring Funding
                                    OSCAR Report                Recommendations Not
                                   Recommendations                  Implemented
                            Do Not                            Do Not
                           Require     Require       Total   Require   Require    Total
      Hearing Offices      Funding     Funding               Funding   Funding
Albuquerque, New Mexico       32          2           34        5         0         5
Colorado Springs,
Colorado                      24          13          37        4         8         12
Downey, California             5          12          17        0         0          0
Fort Worth, Texas             20          18          38        0         0          0
Manchester, New
                              27          3           30        0         0         0
Hampshire
Voorhees, New Jersey         23            2          25       6          1          7
Total                        131          50         181       15         9         24

CORRECTIVE ACTION AND VALIDATION REPORTS

As stated earlier, the OSCAR guide requires the hearing office to forward to HQ, within
90 days of issuing the corrective action report, a validation report confirming that all
corrective actions have been implemented. However, HQ does not hold each hearing
office to this 90-day requirement and does not require the hearing offices to forward the
validation reports. Instead, HQ staff told us they follow-up periodically with each RO
about its hearing offices’ implementation of OSCAR recommendations.

Our earlier finding that three hearing offices had not implemented a number of
recommendations indicates that the validation reports could have been useful to
management. We believe that HQ should ensure components submit validation reports
within the required 90 days unless the component has provided a valid reason that it is
unable to do so. By the time the validation report is issued, the reviewed component
should, at a minimum, ensure that all recommendations not requiring funding were
implemented. Also, it may be helpful to both the hearing office and HQ if the report
indicated which recommendations required funding, along with the dollar amount
needed, since we believe that this would speed up the corrective action process.

ADDITIONAL STEPS

Our review found a few areas where the OSCAR guidance could be more
comprehensive. We believe additional guidance related to remote hearing sites and
sensitive personal data could improve oversight of the hearing offices.
Page 10 - The Commissioner


Permanent Remote Hearing Sites

The current OSCAR guidance does not require a review of permanent remote hearing
      10
sites. As of June 2007, ODAR had 143 permanent remote hearing sites throughout
the Nation. These remote sites are used on a regular basis by ODAR personnel and
the public and may contain some of the same problems detected at hearing offices.
For example, prior SSA OIG audits have found physical security weaknesses at a
number of remote site locations. 11 For this reason, we believe that permanent remote
sites should undergo OSCARs and the OSCAR guide be revised accordingly.

Protection of Sensitive Data

Current hearing office OSCAR procedures did not include sufficient steps to ensure that
personally identifiable information (PII) contained in SSA’s automated systems is
protected. Such procedures needed to be updated to provide for adequate review of
handling PII contained in SSA’s automated systems.

The OSCAR guide’s chapter 4, Security of Automated Systems, includes procedures
for reviewing SSA’s automated systems and associated data at hearing offices.
However, this guide was last updated in November 2004. The OSCAR guide should be
updated to consider current work environments that allow some ODAR staff to work
from home using an SSA-provided laptop. For example, the OSCAR guide does not
include a review of procedures in place to ensure safeguarding laptop computers
                                                                                   12
and/or the PII contained within the laptop computers taken outside hearing offices. In
addition, the OSCAR could include a review of the digital recording laptops used to
record hearings. 13




10
  ODAR has two types of remote sites—permanent and temporary. According to ODAR criteria, a
permanent remote site is a space that has been assigned to or leased for ODAR by the General Services
Administration in a city within the defined service area of a hearing office. A temporary remote site is a
location where hearings are held in space not under a General Services Administration lease or
assignment to ODAR.
11
     These OIG audits are limited distribution.
12
   In June 2006, SSA released interim guidance on safeguarding this information as part of its Information
Systems Security Handbook, which provides basic security guidance for SSA employees, contractors, and
government or business partners who handle SSA information. The responsibility to protect PII applies at
all times regardless of whether SSA employees, contractors or other Government personnel with this
information are officially on duty or not on duty. SSA is working on an additional information technology
document geared to the individual users and managers outlining all information technology security
issues.
13
   In our August 2006 audit, Digital Recording Acquisition Project (A-12-06-26048), we noted that
protection over the equipment and associated data could be enhanced. We made four recommendations
to SSA to improve its use and security of this equipment.
Page 11 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
Our review of the OSCAR process found a number of areas in need of improvement.
For instance, ODAR has not met the 10 percent requirement over the 5-year period,
though the number of HQ OSCARs performed in FY 2007 represents an encouraging
development if it can continue. Lack of national coverage, combined with weak
compensating controls via the RO administrative reviews and self-OSCARs, only
increases the risk that hearing office problems will remain undetected. For those
OSCARs performed during our audit period, the reports could have been more timely,
recommendations should have been implemented, and HQ needed to track
recommendation compliance. Finally, the OSCAR guide itself could be improved to
reflect the way ODAR does its work, from remote hearing sites to work-at-home.

To improve the OSCAR process and increase its effectiveness, we recommend SSA:

1. Review funding priorities and ensure OSCARs are completed at all hearing offices
   within a 5-year period, in accordance with established policy.

2. Document Regional Office Management Reviews to the extent possible and
   maintain copies for the next HQ OSCAR.

3. Ensure hearing office management complete timely and accurate self-OSCARs, and
   provide training, as appropriate.

4. Ensure OSCAR reports are issued in a timely fashion, which includes working with
   appropriate SSA components to ensure any contractor(s) assisting with this process
   are also meeting contract specifications on report issuance.

5. Ensure hearing offices complete a validation report within 90 days of issuing the
   corrective action report, unless advance approval has been given for a delay.

6. Update the OSCAR guide as appropriate to reflect changes in ODAR’s working
   environment, to include the treatment of permanent remote sites and protection of
   sensitive data.

AGENCY COMMENTS
SSA agreed with our recommendations and has already initiated corrective action. The
full text of the agency’s comments is included in Appendix E.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology

APPENDIX D – Timeliness of Issuing OSCAR Reports

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
FMFIA   Federal Managers' Financial Integrity Act
FY      Fiscal Year
HOD     Hearing Office Director
HQ      Headquarters
ODAR    Office of Disability Adjudication and Review
OIG     Office of the Inspector General
OSCAR   On-site Security Control and Audit Review
PII     Personally Identifiable Information
RO      Regional Office
SSA     Social Security Administration
                                                                      Appendix B

Scope and Methodology
To accomplish our objectives, we:

   •   Reviewed Social Security Administration (SSA) policies and procedures, as well
       as prior Office of the Inspector General audits.
   •   Reviewed the criteria pertaining to the process of On-site Security Control and
       Audit Reviews (OSCAR) at hearing offices.
   •   Met with SSA staff to gain a better understanding of the OSCAR process, and to
       observe and note related best practices.
   •   Reviewed the OSCAR process at hearing offices, and its administration by
       regional offices (RO) and the Headquarters (HQ) of the Office of Disability
       Adjudication and Review (ODAR).
   •   Considered other reviews compensating to OSCARs, such as administrative
       reviews performed by ROs and self-OSCARs conducted by hearing offices.
   •   Collected and analyzed data on hearing offices’ OSCARs, ROs’ administrative
       reviews of hearing offices, and hearing offices’ self-OSCARs using
       questionnaires and matrices.
   •   Obtained management information on all HQ OSCARS performed at hearing
       offices during Fiscal Years (FY) 2002, 2003, 2004, 2005 and 2006. We also
       obtained information on the FY 2007 HQ OSCAR process.
   •   Collected and analyzed data related to the timeliness of issuing OSCAR reports
       related to OSCARs performed by ODAR’s HQ and those performed by a
       contractor.
   •   Selected 6 of the 33 HQ OSCARs for review and visited the hearing offices, as
       indicated in Appendix C, to determine whether the OSCAR follow-up process
       was correctly followed and that recommendations were implemented as
       required.

We found data used for this audit to be sufficiently reliable to meet our objectives. The
entity audited was the Office of the Deputy Commissioner for Disability Adjudication
and Review. We conducted our field work from December 2006 through June 2007, in
Falls Church, Virginia; Boston, Massachusetts; Manchester, New Hampshire;
New York, New York; Voorhees, New Jersey; Philadelphia, Pennsylvania; Dallas and
Fort Worth, Texas; Albuquerque, New Mexico; Denver and Colorado Springs, Colorado;
and Downey, California. We conducted this audit in accordance with generally
accepted government auditing standards.
                                                                      Appendix C

Sampling Methodology
The Office of Disability Adjudication and Review (ODAR) administers 140 hearing
offices. During Fiscal Years 2002 through 2006, On-site Security Control and Audit
Reviews (OSCAR) were performed on 70 of ODAR’s 140 hearing offices. Our
population totaled 33 hearing offices where Headquarters’ (HQ) OSCARs were
performed during our audit period. Our audit period was the 12 months starting
April 1, 2005 and ending March 31, 2006.

We reviewed this 12-month population to select a judgmental sample of hearing offices
in which we performed our field work. We determined our sample based on
geographical coverage, funding and proximity to our audit offices. We selected six
hearing offices for review as indicated in Table C-1. We also performed a walk through
of the process of OSCAR planning, follow-up and recommendation implementation at
the Philadelphia Regional Office and the Philadelphia East Hearing Office. In addition,
we obtained information from all 10 regional offices regarding HQ OSCARs and other
reviews at hearing offices.

                        Table C-1: Hearing Offices Reviewed
 ODAR Regions                          Hearing Office Location
 Region I          Manchester, New Hampshire
 Region II         Voorhees, New Jersey
 Region VI         Albuquerque, New Mexico
                   Fort Worth, Texas
 Region VIII       Colorado Springs, Colorado
 Region IX         Downey, California

We included the results of the review of our sample, as appropriate, in the body of the
report.
                                                                       Appendix D

Timeliness of Issuing OSCAR Reports
During our audit period (April 1, 2005 through March 31, 2006), 33 On-site Security
Control and Audit Review (OSCAR) reports were issued; Headquarters (HQ) performed
21, while a contractor performed 12. As indicated in Table D-1, of the 21 HQ OSCAR
reports, only 1 was issued within 30 days of the review completion date. It took 35 to
237 days to issue each of the remaining 20 reports, a median of 129 days and an
average of 127 days for each of the 21 reports.

      Table D-1: OSCARs Performed by Headquarters During the Audit Period
                                                                          Number of
                                      OSCAR            OSCAR Report      Days to Issue
      Hearing Offices              Completion Date      Issue Date          Report
  1   Portland, Maine                  11/5/2004           6/30/2005          237
  2   Manchester, New Hampshire       11/19/2004            6/3/2005          196
  3   Fort Lauderdale, Florida         3/18/2005           9/19/2005          185
  4   Mobile, Alabama                  12/3/2004            6/3/2005          182
  5   Macon, Georgia                    4/1/2005           9/19/2005          171
  6   Miami, Florida                  12/17/2004            6/6/2005          171
  7   Fort Worth, Texas                4/15/2005           9/30/2005          168
  8   Sacramento, California           2/18/2005           7/11/2005          143
  9   Pasadena, California             1/14/2005            6/3/2005          140
 10   Seattle, Washington               5/6/2005           9/19/2005          136
 11   Evansville, Indiana              5/20/2005           9/26/2005          129
 12   Downey, California                2/4/2005            6/3/2005          119
 13   Knoxville, Tennessee              4/4/2005           7/21/2005          108
 14   Oak Park, Michigan               6/10/2005           9/26/2005          108
 15   Albany, New York                  4/8/2005           7/23/2005          106
 16   Saint Louis, Missouri            4/12/2005           7/23/2005          102
 17   Oklahoma City, Oklahoma          4/22/2005           7/25/2005           94
 18   Colorado Springs, Colorado        7/1/2005           9/30/2005           91
 19   Pittsburgh, Pennsylvania         6/17/2005           7/30/2005           43
 20   Houston-Bissonnet, Texas         2/15/2006           3/22/2006           35
 21   Louisville, Kentucky             7/22/2005            8/1/2005           10
                                                     Total days              2,674
                                                     Median days              129
                                                     Average days             127




                                           D-1
As indicated in Table D-2, none of the 12 OSCAR reports issued by the contractor met
the 30-day requirement. However, it took less time to issue these reports than those
HQ issued. The contractor’s reports were issued within 43 to 60 days of review
completion date, a median of 51 days, and an average of 50 days.

      Table D-2: OSCARs Performed by Contractor During the Audit Period
                                                                        Number of
                                 OSCAR Review        OSCAR Report      Days to Issue
      Hearing Offices            Completion Date      Issue Date          Report
  1   Hartford, Connecticut           4/6/2005            6/5/2005           60
  2   Lexington, Kentucky            4/20/2005           6/13/2005           54
  3   Voorhees, New Jersey           4/13/2005            6/5/2005           53
  4   Kingsport, Tennessee           4/22/2005           6/13/2005           52
  5   Albuquerque, New Mexico        2/16/2005            4/8/2005           51
  6   Nashville, Tennessee           4/15/2005            6/5/2005           51
  7   Eugene, Oregon                 3/16/2005            5/5/2005           50
  8   Little Rock, Arkansas           3/2/2005           4/21/2005           50
  9   Metairie, Louisiana             3/9/2005           4/28/2005           50
 10   Flint, Michigan                 5/4/2005           6/17/2005           44
 11   Paducah, Kentucky              5/11/2005           6/24/2005           44
 12   Peoria, Illinois               3/23/2005            5/5/2005           43
                                                   Total days               602
                                                   Median days               51
                                                   Average days              50




                                         D-2
                  Appendix E

Agency Comments
                                 SOCIAL SECURITY

MEMORANDUM


Date:      September 24, 2007                                           Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Onsite Security Control and Audit
           Review at Hearing Offices” (A-12-07-17080)—INFORMATION


We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
are attached.

Please let me know if we can be of further assistance. Staff inquiries may be directed to
Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at 410 965-4636.

Attachment:
SSA Response




                                               E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "ONSITE SECURITY CONTROL AND AUDIT REVIEW AT HEARING
OFFICES" (A-12-07-17080)

Thank you for the opportunity to review and provide comments on this draft report. We
recognize the importance of complying with the Onsite Security Control and Audit Review
(OSCAR) program which was designed to satisfy the requirements stated in the Federal
Managers’ Financial Integrity Act. We appreciate that the report notes our efforts to address
deficiencies in the Office of Disability Adjudication and Review’s (ODAR) Management Control
Review (MCR) process from fiscal year (FY) 2002 – FY 2004. In addition, it cites our positive
movement forward as ODAR transitioned from conducting management reviews of hearing
offices to the formal OSCAR process. Although the report covers the last 5 years
(FY 2002 – FY 2006), it accurately notes that ODAR did not begin conducting OSCARs as its
main MCR activity until late FY 2004. During the period covered by the report, ODAR
conducted an internal review known as the Hearing Office Management Process Review
(HOMPR), also known as a “self-OSCAR.” The HOMPR results were not documented in
writing. Rather, they were conveyed verbally to hearing and regional office management teams,
limiting our ability to track and follow through on the findings. Within this context, we
acknowledge the need to continue our efforts to maintain and improve ODAR’s OSCAR process.
Our responses to the specific recommendations are as follows.

Recommendation 1

Review funding priorities and ensure OSCARs are completed at all hearing offices within a
5 year period, in accordance with established policy.

Comment

We agree. We will ensure that OSCARs are completed at all hearing offices within the 5 year
period.

Recommendation 2

Document Regional Office Management Reviews to the extent possible and maintain copies for
the next Headquarters’ OSCAR.

Comment

We agree. We plan to issue an appropriate reminder to our regional management teams by
January 31, 2008 and will maintain copies of the next Headquarters’ OSCAR.

Recommendation 3

Ensure hearing office management complete timely and accurate self-OSCARs, and provide
training, as appropriate.


                                             E-2
Comment

We agree. We plan to provide training by February 28, 2008, as appropriate, to ensure that
hearing office management completes timely and accurate self-OSCARs.

Recommendation 4

Ensure OSCAR reports are issued in a timely fashion, which includes working with appropriate
SSA components to ensure any contractor(s) assisting with this process are also meeting contract
specifications on report issuance.

Comment

We agree. We will ensure that ODAR OSCAR reports are issued in a timely fashion. We will
work with the appropriate component responsible for ensuring the performance of any contractor
approved to assist with the OSCAR process.

Recommendation 5

Ensure hearing offices complete a validation report within 90 days of issuing the corrective
action report, unless advance approval has been given for a delay.

Comment

We agree. By January 31, 2008, we will issue an appropriate reminder to our regional and HO
management teams to ensure the completion of a validation report within 90 days of the issuance
of the corrective action report, unless advance approval has been given for a delay.

Recommendation 6

Update the OSCAR Guide as appropriate to reflect changes in ODAR’s working environment, to
include the treatment of permanent remote sites and protection of sensitive data.

Comment

We agree. We are reviewing and expect to revise our ODAR OSCAR protocol and guide by
December 31, 2007. This review of our OSCAR process will reflect the reorganization of
ODAR Headquarters as a Deputy Commissioner-level component. In addition, we will address
the extent to which we can include our permanent remote sites in the OSCAR process, keeping in
mind that any such review will be an abbreviated version. Our review will also reflect ODAR’s
effort to maintain and improve the Agency-wide effort to protect sensitive data.




                                               E-3
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, Philadelphia Audit Division, (215) 597-4080
   Michael Maloney, Audit Manager, Falls Church Audit Office (703) 578-8844

Acknowledgments

In addition to those named above:
   Ehab Bestawrose, Auditor-in-Charge
   Yaquelin Lara, Auditor
   Mary Dougherty, Senior Auditor
   David Mazzola, Audit Manager
   Toni Paquette, Program Analyst
   Denise Molloy, Senior Analyst
   Joshua Campos, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-12-07-17080.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
